AFFIDAVIT OF SERVICE
STATE OF NEW YORK
COUNTY OF WESTCHESTER
Brian R. Landy, Jr., being duly sworn, deposes and says that deponent is not a
party to the action, is over 18 years of age, and resides at 38 Davis Avenue,
Rye, New York 10580.
That on the 17th day of March, 2021 deponent served the within:
PETITION FOR A WRIT OF CERTIORARI
upon designated counsel for the parties indicated herein at the addresses
provided below by depositing 1 true copy -thereof enclosed in a post-paid
wrapper, in an official depository under the exclusive care and custody of the
U.S. Postal Service within New York State.

Kathryn Martin, Esq.
US Attorney for the Southern District of New York
300 Quarropas Street
White Plains, New York 10601
Won S. Shin, Esq.
US Attorney for the Southern District of New York
1 St. Andrew's Plaza
New York, NY 10007

Sworn to before me this
17th day of March, 2021

Eric R. Larke
Notary Public, State of New York
No. 01LA5067236
Qualified in Westchester County
Commission Expires March 5, 2023

Brian R. Landy,

15809

